r

19-1230

FILED
SEP 01 2019
OFFICE OF THE CLERK
SUPREME COURT HP

In The
Supreme Court of the United States

BOBBY KNIGHT, a/k/a Bobby Knight, III
Petitioner,
v.

JEH CHARLES JOHNSON, DHS SEC. etal,
Respondents.

On Petition For Writ Of Certiorari
To The United States Court Of Appeals
For The Fourth Circuit

PETITION FOR WRIT OF CERTIORARI

Bobby Knight, pro se
3940 Hottinger Ave., North Charleston, S.C. 29405
(843) 735-0814

RECEIVED,
MAR 2 2020

gasga&SS

Ik

A

r

LI

i

1

QUESTIONS PRESENTED

I.

DID THE COURT BELOW FAIL TO USE AN
APPROPRIATE STANDARD OF REVIEW
WHEN GRANTING ALL THE DISMISSAL
MOTIONS WITHOUT RECOGNIZING THE
PETITIONER’S EVIDENCE?

II.

DID THE COURT BELOW BY FAILING TO
GRANT THE PETITIONER A TRIAL CREATE
A SERIERS OF REVERSABLE ERRORS AS
THE UNITED STATES SIMULTANEOUSLY
FILED IT’S MOTION TO DISMISS AS A
DEFENDANT WHILE ELECTING TO NOT
INTERVENE AS A QUI TAM PLAINTIFF?

III.

DID THE DISTRICT COURT DENY THE
PETITIONER’S MOTION FOR JUDGEMENT
BY DEFAULT CREATE A REVERSABLE
ERROR?

IV.

DID THE DISTRICT COURT MAKE A
REVERSABLE ERROR BY ALLOWING A
VIOLATION OF THE STATE’S LAW THAT
STRICTLY PROHIBITED THE S.C. STATE’S
INSURANCE FUND ATTORNEYS TO
REPRESENT A PRIVATE BUSINESS’S
INDIVIDUAL OWNER? CRICHARDSON, JR)

A

11

QUESTIONS PRESENTED
V.

DID THE DISTRICT COURT CREATE A
REVERSABLE ERROR CHANGING THE
NAME OF RICHARDSON TO RICHARDSON,
SR. WHO WAS DECEASED 9 YEAR PRIOR TO
“AT ALL TIMES PERTINENT TO THE CASE”?

VI.

DID THE DISTRICT COURT CREATE A
REVERSABLE
ERROR
TO
GRANT
DEFENDANT CHENEGA SECURITY AND
THORPE FIRST MOTION TO DISMISS BY
SUBSITUTING THE SECOND MOTION TO
DISMISS USING THE ROSEBORO ORDER
WARNING OF THE SECOND ON THE FIRST
ONE FILED (7) MONTHS EARLIER W/O THE
ROSEBORO ORDER NOTICE TO PRO SE?

VIL

DOES THE DISTRICT COURT CREATE A
REVERSABLE ERROR WITH USE OF A
FEDERAL EMPLOYED
GHOSTWRITER
ATTORNEY BETWEEN CHAMBERS IN THIS
DISTRICT COURTS IN-HOUSE SECRETELY
ASSIGNED TO ALL PRO SE CASES?

VIIL

DID THE DISTRICT COURT GRANT
MOTIONS TO DISMISS IGNORING THE
VALUE AND WEIGHT OF THE EVIDENCE
THE PETITIONER FILED UNDISPUTED
PHOTO AND A FLETC INVESTIGATION
REPORT CAUSE A REVERSABLE ERROR?

.A

Ill

QUESTIONS PRESENTED

IX.

DID THE DISTRICT COURT CREATE A
REVERSABLE ERROR TO IGNORE THE
EVIDENCE THAT THE UNITED STATES
PERSONNEL AND EQUIPMENT WAS USED
TO CREATE A UNLAWFUL VAULE
CONVERTED
INTO
A
PRIVATE
DEFENDANT BENEFIT AND PROFITS?

X.

DID THE DISTRICT COURT CREATE A
REVERSABLE ERROR TO IGNORE THE
UNITED STATES CONTRACT TECHNICAL
REPRESENTATIVE’S TESTIMONY THAT
THE
PETITIONER
WAS
“WRONGED
METHODICALLY’ - WHILE THE COURT OF
APPEALS GRANTED TO ADMIT THIS
EVIDENCE INTO THE RECORD; THEN IT
DENIED TO REMAND FOR A TRIAL?

XI.

DID THE DISTRICT COURT CREATE A
REVERSABLE ERROR IN FAILING TO
PROTECT
THE
PETITONER
FROM
RETALLIATION
AS
THE
ORIGINAL
WHISTLEBLOWER?

IV

PARTIES TO THE PROCEEDING
Petitioner BOBBY KNIGHT was the Plaintiff in the
district court proceedings and Appellant in the Court
of Appeals proceedings. JEH CHARLES JOHNSON,
DHS SECRETARY: CHENEGA SECURITY, INC.;
JOHN THORPE, Chenega Security, Respondents were
the defendants in the district court proceedings and
appellees in the court of appeals proceedings. The
following Defendants did not appear after the Notice of
Appeal to the Fourth Circuit: ROBERT J. PAPP, JR.,
United
States
Coast
Guard
Admiral;
ATLANTICELECTRIC,
LLC;
LEGRANDE
MICHAEL
RICHARDSON,
RICHARDSON;
individually; LEGRANDE RICHARDSON, JR., South
Carolina State Department of Labor Licensing &
Regulation, as Contractor's Licensing Board; LEWIS
M. CASWELL, South Carolina State Department of
Labor Licensing & Regulation, as Contractor’s
Licensing Board; JAMES EDWARD LADY, South
Carolina State Department of Labor Licensing &
Regulation, as Contractor's Licensing Board; DANIEL
B. LEHMAN, South Carolina State Department of
Labor Licensing & Regulation, as Contractor’s
Licensing Board; KIMBERLY L. LINEBERGER,
South Carolina State Department of Labor Licensing
& Regulation, as Contractor's Licensing Board; BILL
NEELY, South Carolina State Department of Labor
Licensing & Regulation, as Contractor’s Licensing
Board; JAMIE C. PATTERSON, South Carolina State
Department of Labor Licensing & Regulation, as
Contractor’s Licensing Board; W. FRANKLIN
WALKER, South Carolina Slate Department of Labor

V

PARTIES TO THE PROCEEDING
Licensing & Regulation, as Contractor’s Licensing
Board; NIKKI R. HALEY, Governor; GEORGE SKIP
ALDRICH, Individual, DHS- USCG CHAS; JOHN
THORPE, Chenega Security; MICHAEL GLAZIER,
Individual, DHS-FLETC CHAS,

VI

RELATED CASES
*
No related case law can be found where the
United States is also the Statutory required Plaintiff
in AL1 Qui Tam matters and also the United States is
a Defendant in this Qui Tam matter by virtue of
Privity of Contract Prohibitions in Fed Contracting.
*
No related case law can be found where the
Statutory Relator who is assigned a United States no­
bid contract by virtue of his Native American ethnic
status and registered with the U.S. Small Business
Administration and while being the sole-proprietor of
his 8a business concern and whom has suffered
individual as a third-party disparity-discrimination
and for the retaliation treatment resulting in
professional and personal losses, financial damages
and social emotional injury due to the United States
PRIVITY OF CONTRACT Acts that are Prohibited in
bold letters as a condition of the SBA 8a Award.
• Fourth Circuit Opinion No. 12-1497U (trial
evidence effects outcome of a trial) The Fourth
Circuit {No. 1820) spoken with a forked tongue
conflicting i[t]s affirmation of this case.
Reversable Error Standards:
Montana Petroleum Tank Release Compensation
Bd. v. Crumley's, Inc., 174 P.3d 948 (Mont. 2008).)
Franki Foundation Co. v. Alger-Rau & Assocs., 513
F.2d 581, 586 (3d Cir. 1975)

;

i

Vll

TABLE OF CONTENTS
Page
QUESTION PRESENTED ........
PARTIES TO THE POCEEDING

1, 11, m
iv

RELATED CASES
TABLE OF CONTENTS
TABLE OF AUTHORITIES

-v
vi

Vll - IX
X ■ XIV

PETITION FOR A WRIT OF CERTIORARI

xv

OPINIONS BELOW

xv

JURISDICTION ..... .......................................

xv

CORPORATE DISCLOSURE STATEMENT..... N/A
STATUTES & CONSTITUTIONAL PROVISIONS
INVOLVED ..........................................................

XVI

INTRODUCTION AND STATEMENT OF THE
CASE ...................................... .......................... 1 ■ 17
REASONS FOR GRANTING THE PETITION 17 - 25

Vlll

TABLE OF CONTENTS
Page
I.

The Fourth Circuit ’s Decision Reflects an
Existing Circuit Split Regarding Review of
Improper Grants of various Motion Judgments;
.................................................................... 19 ■ 21
A. Majority of Circuits Decline to Review
Disguised Summary Judgment Motions ...
21 • 22
B. Other Circuits Use Less Stringent Standards
to Review Disguised
22 - 24
C. The Circuit Split Has Serious, Wide- spread
Practical Ramifications on All Qui Tam &
Retaliation Litigation
24 - 27
II. The Fourth Circuit Applied the Incorrect
Standard of Review When Evaluating the
District Court’s Denial of Knight’s Motion in
Limine Dismissing Evidence of FCA-Protected
Activity.
27 - 31
III. The Fourth Circuit Should Have Reviewed the
District Court’s De Facto Grant of Judgment
Under One of Several Less Severe Standards
...................................................................31 - 38
CONCLUSION

38

j*

IX

TABLE OF CONTENTS
Page

APPENDIX TO THE PETITION FOR A WRIT OF
END
CERTIORARI
303a to 344a

ORDERS USDC

la ■ 302a

THIS SERIES IS PROVIDED IN R.33
FORMAT AS ONE (l) UNBOUND 8.5” X 11”
MISC.SUPPLEMENT TO THIS APPENDIX***
ORDER Denying Appeal, United States Court of
Appeals for the Fourth Circuit (March 18, 2019)
303a to 309a
{f/k/a App. 1}

ORDER Denying Rehearing, United States Court of
Appeals for the Fourth Circuit (June 4, 2019) ...
310a to 337a
..... ........ (f/k/a App. 2}

(f/k/a App. 3.1}... 338a to 340a

22

(f/k/a App. 3.2} ...,341a to 343a

23

(f'k/a App. 3.3} ... 344a ..........

23

X

TABLE OF AUTHORITIES
CASES

Page

Adickes v. S. H. Kress & Co., 398 U.S. 144 (1970)
34
Berkovitz v. Home Box Office, Inc., 89 F.3d 24 (1st Cir.
1996)

23 ; 34

Bradley v. Pittsburgh Bd. of Educ., 913 F.2d 1064 (3d
Cir. 1990)

23 ; 32

Brobst v. Columbus Servs. Int’l, 761 F.2d 148 (3d Cir.
1985)
Carlson v. DYNCORP (4th Cir. No. 12-1287)

23 ; 33

17

Covey v. Hollydale Mobilehome Estates, 116 F.3d 830
(9th Cir. 1997)
Crumley's, Inc., 174 P.3d 948 (Mont. 2008)

35
6

Estate of Barabin v. AstenJohnson, Inc., 740 F.3d 457
(9th Cir. 2014)

9 ; 30

XI

TABLE OF AUTHORITIES
Page

CASES

Franki Foundation Co. v. Alger-Rau & Assocs., 513
F.2d 581, 586 (3d Cir. 1975)

............................... 15

Givaudan Fragrances Corp. v. Rrivda, 639 F. App’x
840 (3d Cir. 2016)

23 ; 28 ; 34

Gold Cross Ems, Inc. v. Children’s Hospital of
Alabama, 309 F.R.D. 699 (S.D. Ga. 2015)....... 29 ; 33
Haddad v. Lockheed California Corp., 720 F.2d 1454
30

(9th Cir. 1983)
Kyle Railways, Inc. v. Pac. Admin. Servs., Inc., 990
F.2d 513 (9th Cir. 1993)

........................................ 31

Lockheed Martin Corp. v. Admin. Review Bd., U.S.
Dep’t of Labor, 717 F.3d 1121 (10th Cir.2013) ..... 30
Louzon v. Ford Motor Co., 718 F.3d 556 (6th Cir.
2013)

22 ; 29 ; 32 ; {ftk/a App 3.2} 341a to 343a

Xll

TABLE OF AUTHORITIES - Continued
Page

CASES

Massey v. Congress Life Ins. Go., 116 F.3d 1414 (llth
Cir. 1997)

23

Meyer Intellectual Properties Ltd. v. Bodum, Inc., 690
F.3d 1354 (Fed. Cir. 2012)

22 ; 28 ; 32

Mid'Am. Tablewares, Inc. v. Mogi Trading Co., Ltd.,
100 F.3d 1353 (7th Cir. 1996) ...22; 32; {APP 3.1} #Ma
Montana Petroleum Tank Release Compensation Bd.
v. Crumley's, Inc., 174 P.3d 948 (Mont. 2008).)

6

O’Day v. McDonnell Douglas Helicopter Co., 79 F.3d
756 (9th Cir. 1996)

37

Osunde v. Lewis, 281 F.R.D. 250 (D. Md. 2012)

28

Peterson v. Corrections Corporation of America, 2015
WL 5672026 (N.D. Fla. 2015)

33

Stella v. Town of Tewksbury, Mass., 4 F.3d 53 (1st Cir.
1993)

23

Xlll

TABLE OF AUTHORITIES
Page

Stroh v. Saturna Capital Corp., 746 F. App’x 639 (9th
26 ; 28 ; 37

Cir. 2018)
U.S. v. Ross, 206 F.3d 896 (9th Cir. 2000)

25

Williams v. Rushmore Loan Mgmt. Servs. LLC, No.
•15CV673(RNC), 2017 WL 822793 (D. Conn. Mar. 2,
2017)

22 ; {Pk/a App. 3.1} ... 338a to 340a

Zokari v. Gates, 561 F.3d 1076 (10th Cir. 2009).....
................................... 23 ; {f7k/a App 3.2} 341a to 343a

XIV

TABLE OF AUTHORITIES
Page
STATUTES
l; 27

28 U.S.C. § 1254(1)

U.S.C. §31 U.S.C. §§ 3729-32 (The “False Claims Act”)
................................................................................ 1 ; 27
FCA 31U.S.C. § 3730(h) & (h)(1)

1 ; 27

FCA 31U.S.C. § 3730(b) & (b)(1) .

1 ; 27

SOX at 18 U.S.C. § 1514A(a)(l)(C)

l ;27

42 U.S.C. §1983 et seq....................

l ;27

RULES
Fed. R. Civ. P. 56 ; 56(a)
4; {f7k/a App 3.2} 341a to 343a

■

.

Fed. R. Civ. P. 60

15

Fed. R. Civ. P. 61

31; 34

Fed. R. Evid 103(d) ...

34

Fed. R. Evid. 103(e) ..

31

Fed. R. Evid 104(a), (c)

34

XV

PETITION FOR A WRIT OF CERTIORARI
Bobby Knight petitions for a writ of certiorari to
review the judgment of the United States Court of
Appeals for the Fourth Circuit No. 18-1820 in this case.

OPINIONS BELOW
The Fourth Circuit’s opinion is UNPUBLISHED
the Fourth Circuit’s denial of petitioner’s motion for
reconsideration and/or rehearing en banc is
reproduced at APPENDIX TO THE PETITION FOR
A WRIT OF CERTIORARI.....{ftk/a App. 1 & 2}..........
303a to 337a

JURISDICTION
The Court of Appeals No 18-1820 entered
judgment on March 18, 2019. The Court denied a
timely petition for rehearing (en banc) on June 4, 2019.
This Court has jurisdiction under 28 U.S.C. § 1254(l).

XVI

STATUTES AND CONSTITUTIONAL
PROVISIONS INVOLVED
This case does involve interpretation of statutory
or constitutional provisions:
• United States Whistleblower Protection Act
o 31 U.S.C. §§ 3729-32 (The “False Claims
Act”) FCA
o FCA 31U.S.C. § 3730(h) & (h)(1)
o FCA 31U.S.C. § 3730(b) & (b)(1)
o SOX at 18 U.S.C. § 1514A(a)(l)(C)
• United State Constitution Fifth Amendment; Due
Process & Substantive Rights of Petitioner denied
• US Code 28 §636
•

Equal Protection Act - equal access court denied

• 42 U.S.C. §1983 et seq.
• Federal Code of Regulations [FCR] -Disputes and
Contract Closeout Procedures.

1

INTRODUCTION AND STATEMENT
OF THE CASE

The issue presented in this case involves a genuine
and current conflict between the Courts of Appeals that is
significant and substantially important because it will
determine the standard of review courts use when reviewing
the dismissal of an entire cause of action This case through
a tainted systemic dismissal motions process, also raises
issues of exceptional importance under the whistleblower
protection provisions of the 31 U.S.C. §§ 3729*32 et sea. The
"False Claims Act as well as in all litigation in which a
motion to dismiss is used as the legal equivalent of a
summary judgment motion. Furthermore, the Fourth
Circuit opinion affirming the district dismissal ruling
created a circuit split regarding the proper standard of
appellate review in such cases.
This matter has evolved since February 16, 2011 and
now our United States Supreme Court Justices have the
\

Exclusive Jurisdiction to settle my personal
damages and
\
injuries from a legitimate Federal Dispute about my SBA 8a
Assigned

Contract

DHS-USCG

CEU MIAMI

and

\

\

2

Construction Group, LLC North Charleston, SC with the
United States as material facts were well documented in my
USDC pleadings 2:15-CV-03199 in my Verified Complaint
& Amended Complaint) wherein the United States is also
the Plaintiff and the Defendant having been simultaneously
unethically and unlawfully represented by USAO-SC as
both the Co-Plaintiffs and Co-Defendants. Petitioner’s
photos and the FLETC Investigation Report were never
ruled upon at USDC — then those matters are ripe for
resolving. A failure of the United States to resolve these
matters opens wide doors for anyone to steal and not be
prosecuted and for anyone to use the military for private
profits and personal enrichments. — each a felony and each
a federal contract PROHIBITION.
Many times the last four years, all television media outlets
are reporting that the DoJ top officers are/is biased and
rigged unfairly about federal elections and here too about
me and in this matter of my SBA 8s DBE and HUBZone
small contracting business long claiming and showing in
both photographs and a DHS-USCG FLETC Investigation
Report that my claims are true and most accurate. Further,
that the monetary proceeds for this theft of copper from Pier

3

PAPA USCG CHAS SC along with the subcontractor’s
enrichment from uses of the Military Personnel and
Military Equipment due to a an unlawful and contract
prohibited favoritism from/by Federal Employees towards
the private Defendants and others.
Federal Law - Stolen from the Plaintiff still is the scrapcopper money. It was commingled into Atlantic funds that
found its ways into the SC Republican Governors campaign
and then the thieves were rewarded more with an
appointment to the SC Labor Licensing and Regulation
Contractors License Board, where the frauds and felonies of
these attorneys and officers of the courts have committed
and continued these felonies in two ways, First against the
United States of America and all of us as Citizens. And,
Secondly, against the United States Courts by withholding
and not speaking to the Federal Judges of Knight’s
photographs and federal police reports — which are
undisputed in any form or manner. There is no denying this
the “smoking gun”.
Additionally, if the United States Supreme Court fails to
grant this Writ of Certiorari for Knight’s Dispute, then the
United States will partake in the serious precedent that will

\

\

4

destroy the Rule of Law — the Courts and its Officers, all,
each and every one of them, will have granted permission
for anyone to steal from federal contracting and sell the
United States Property of “any value” and to use the
military personnel and military equipment for private
enrichments via federal contracting.
Qui Tam litigation was originally designed and has evolved
into what is now named the United States Whistleblower
Protection Act. 31 U.S.C. §§ 3729-32 (The “False Claims
Act”) FCA 31U.S.C. § 3730(h) & (h)(1); and FCA 31U.S.C. §
3730(b) & (b)(1); and
To the contrary, the routine pattern of behavior of the
USAO-SC and the USDC Charleston with [i]ts anonymous
pro se attorney acting between the USDC Magistrate
Chambers, the USDC Judge Chambers and a slew of
Defendant Attorneys; and the USCA of the Fourth Circuit
ignoring that the United States and SC State Defendants
were remaining named parties in the Appeal caption,
is/were and still are a part of the Appeal process. Just
because they’ve elected to be silent;

have errored and

stumbled on the requirement of Fair-Case Management
resulting with that which does not protect this Petitioner or

I

5

any other whistleblower. If fact, The Petitioner repeatedly
moved to have the docket caption corrected at TJSCA level.
However, the Court below never acknowledged the behavior
of these Defendants. The Court obviously only reviewed
Respondents Chenega and Thorpe. An error again which
makes all looks like ‘there were no Reversable Errors at all’
to review and remand upon.
. . . it puts whistleblowers in a class without publicizing of
that court employees exitanee. It makes worthless the US
Code §636 that authorizes a District Judge assign pro se
cases to a Magistrate Judge as the case work really is done
by a secretly employed pro se attorney who behind the scene
floats about as a Ghostwriter — which is a due process and
federal court PROHIBITION in and of itself, e.g. Equal
Protection Court Access is being denied to Knight. The
Petitioner -Appellant has. not been heard and his
Substantial Rights and Due Process Rights were ignored
and DENIED.
This Petition for a Rehearing is a just and proper for a de
novo review of the United States Court of Appeals & District
Courts Docket and to vacate and reverse itself for a new

6

trial about what are a series of compound Reversable
Error(s)1 as follows:

1.

* In United States law, a reversible error is an error of sufficient

gravity to warrant reversal of a ludgment on appeal. It is an error by the
trier of law (judge), or the trier of fact (the jury, or the judge if it is a
bench trial), or malfeasance by one of the trying attorneys, which results
in an unfair trial. It is to be distinguished from harmless errors which
do not rise to a level which brings the validity of the judgment into
question and thus do not lead to a reversal upon appeal. ... A finding
of reversible error requires that one or more of the appellant's
"substantial rights" be affected, or the evidence in question be of such
character as to have affected the outcome of the trial. (See e.g., Montana
Petroleum Tank Release Compensation Bd. v. Crumley's, Inc., 174 P.3d
948 (Mont. 2008).) Therefore, reversible errors resulting from the
violation of an individual's "substantial right(s)" must be considered on
an individual basis. . . . • {reversable errors} for excluding evidence
which a party was entitled to have admitted; ... If an appellate court
determines that reversible error occurred, it may reverse the judgment
of the lower court and order a new trial on such terms and conditions as
are found to be just. . . . Technically, attorney misconduct is not
reversible error. Failure of the judge to remedy it. during the trial is
reversible—error. In cases such as unfairly or illegally concealing
evidence, there is no error on the part of the court but the court's
decision may still be vacated and the matter returned for a new trial.
because there is no other wav for justice to he wanted

ii
1

7

1.

The Respondent Chenega Security, Inc and its

manager John Thorpe filed their first Motion to Dismiss
after the Magistrate’s Report and Recommendation had
been submitted to the District Judge. NO Roseboro Order
was issued to the Plaintiff, this Appellant. The Magistrate
later wrote that she felt that “the plaintiff (PETITIONER)
has abandoned his case altogether.” This, after months had
passed the R&R was submitted and objected to; the
Respondent Chenega and Thorpe submitted a second
Motion to Dismiss. The District Court held that the second
was MOOT and that the first was valid and so the District
Court granted the first. This was an error of law, precedent
and requirement to comply with Due Processes. The
Substantial Rights of the Appellant Knight were ignored.
2.

The State Defendants were represented by the SC

Insurance Fund. In so doing, the State is prohibited by State
Codes from representing LeGrande

Richardson,

Jr.

(originally plead as LeGrande Richardson without the Jr.)
The State plead their representation was valid, the
Appellant plead it was not per State Code of Laws, then the
Defendants via the State filed a pleading stating the

8

LeGrand Richardson was the father of the two living owners
of Atlantic Electric LLC (the first-tier subcontractors) and
that the father had died 9 years earlier. The District Court
wrote an ORDER that biased and arbitrarily changed the
name-suffix to read L. Richardson Sr. and put that in bold
print) and then denied the Petitioner’s Motion for
Judgement by Default. The Appellant plead typing first
LeGrande Richardson and second after learning he was a
Jr. typing as LeGrande Richardson, Jr.; who are and were
one in the same persons and further, as shown and defined
in the PARTIES section in Petitioners Verified Complaint
(w/no Jr.) and his “continued” Amended Complaints (with
the name-suffix Jr.) as shown and stated that these
Defendants “... were living and conducting business in
Charleston County SC “ at all times pertinent to this
lawsuit” the District Court ignored this oblivious assertion
and therefore the Plaintiff, pro se, this Appellant was not
heard at trial of this at a hearing to grant the Appellants
Motion for Judgement by Default of Legrand Richardson, Jr,
a private individual, who did not appear, did not Answer
either of the Complaints at all. The State Insurance Fund
attorneys could not lawfully represent him in his personal
and business capacity, but only in his LLR Contractors

i

Xl

9
Board Capacity. This was a Reversable Error and had it not
been for the mechanization of the Rule of Law, would have
clearly been granted in favor of the Appellant. Certainly &
clearly, there is no doubting that the Appellant did not file
a suit or sue the Estate of Atlantic Electric LLC’s father.
3.

This Appellant complained by letters to the District

Court in the early stages of the lawsuit, that Atlantic
Electric LLC was a electrical contractor for the maintenance
for the United States District Court in Charleston SC
creating an atmosphere of undue influence when confronted
with (l) the theft of 3000 lbs of Appellant’s copper and (2)
Privity of Contract. Every Qui Tam action is a Death
Warrant for the wrongdoers and must not be a Death
Warrant of the Whistleblower, this Petitioner'Appellant.
AND;
i.

The District Court did not respond, expose or deny to

the exposure of this bias and favoritism while ruling against
the undisputable facts, (l) the photo and (2) the FLETC
Investigation Report that were presented in the Verified
Complaint & Memorandum and then “continued” into the
Amended Complaint and subsequent Appellant’s Pleadings.
This deliberate silence by the District Court is, in and of

10
itself, a violation of the Appellants Substantive Rights to be
heard as a party, especially one pro se, Substantial Rights
as a litigant . . .

Excluding this kind of (relationship)

evidence which a pro se party was entitled to have admitted
and to be fairly used at a trial of the facts before any jury.
4.

The Plaintiff learned - as plead in his Manila

Envelope pleading, that the District Court had put items
received ex parte from these Defendants, Respondents. The
item was entered onto the docket and then removed without
any order of the court to delete numbered items from thp
docket.
i.

This action alone effects the proper review of the Case

Management duty to be properly and openly supervised by
the District Court.
Too, this is a violation of the Appellants Substantial
Rights and Due Process expectations.
5.

The District Court employees an attorney that IT

employs to case manage all pro se litigants. This is a
patently secret of the District Courts and this person has
become

communicator with the lawyers of these

Respondent(s) Attorneys. This secret silence by an

11
anonymous bureaucrat whose name does not appear on the
docket is in fact, acting like a Ghostwriter via a conduit with
these Respondent’s Attorneys. Ghostwriting is a prohibition
in all Federal Courts and as such should not exist without
this attorney filing persons exposure and identification to
the pro se litigants.
i.

This system is rigged in favor of attorneys and

against the pro se litigants by his being “kept in the dark of
all this ex parte communication”; is having the Appellant’s
Substantial Right Denied and Due Process not being made
available to the Public Trust that Congress has instilled into
the District Court System. Appointing of the Magistrate
Judge for a Report and Recommendation is NOT authority
to substitute with a employee pro se lawyer

who is

overboard in handling of the Case Management & treating
pro se litigants as a class of misfits. Seethe USDC Dkt for
the Petitioners’ Motion Rule 60 to Adopt the United States
Court’s own Federal Law Center Brief (FLC) to allow USDC
Judges to appoint Restricted Scope Attorneys in such Qui
Tam cases. This was denied without statement.
n.

Congress mandated that the Petitioner-Appellant

had a right to a hearing for the United States Motion to

12

Dismiss (filed by United States and before the USAOSC
entered its decision to or not to Intervene). As goes the
General Rule that the layman cannot represent the United
States was a General Rule and the Petitioner plead this
exception and provided a Federal Law Center Brief for the
District Court to adopt e.g. Restricted Scope appointment of
an attorney for the United States. This was not responded
to, just ignored.
Knight, pro se, having attended three (3) such
hearing under transcripts filed at Appeal. Add too, the
Court knew, but would never acknowledge the three
undisputed pieces of evidence Knight filed on the record.
iii.

Petitioner could have represented himself for the

Retaliation and the Restricted Scope Attorney could have
easily represented the United States as Plaintiff and the
USAOSC could have, without any conflicts, represented, as
required, the United States as the Defendants. This was
denied although theorized in the Federal Law Center Brief
filed.
6.

The Appellant plead that the DHS USCG CEU-

MIAMI COTR , Mr. Russel Costa had facts and testimony

I

13
to be heard in favor of the Plaintiff, this Appellant. The
Government kept him silenced during the Judge Ge rgel
District Court processes and further hid COTR from this

Appellant the Federal Law Enforcement Investigative
Report — this is this Norton District Court cause of action
plead for a Writ of Mandamus. Both Mr. Costa’s testimony
as a Federal Government voice, that the Appellant was
“wronged methodically” along with the FLETC Officer, Lt
Davis’ Official Report to the Government (a contract
document itself denied at the Gergel Court) that these
Defendants ‘admitted to stealing from the Appellant 3000+
lbs of copper metal - are undisputable facts that the District
Court was required to let be heard at a Trial of the Facts
and the Jury but District Court did not let the case proceed.
7.

Court

The Petitioner-Appellant complained to the District
that

the

Federal

Defendants

wrongfully

administratively closed the DHS-USCG CEU MIAMI
contract under dispute by Plaintiff Knight, who has claimed
that a Third-Party Disparity-Discrimination violation
against him was as such then created. The Federal Code of
Regulations [FCR] outlines the step-by-step procedures for
every contracts closure and to do so during a valid dispute

14

is “prohibited”. The Appellant noticed the District Court of
this breach and during the matter such far the government
has kept $6,028 from the Appellant during this pending
case.
8.

The Petitioner-Appellant plead clearly, that the

Federal Defendants’, DHS USCG CEU-MIAMI caused a
Privity of Contract breach against the Appellant’s as a
Third-Party Disparity-Discrimination violation

as being

the SBA 8a business concern owner that accepted the Small
Business Administration [SBA] special no-bid assignment of
the 8a set aside federal contract with DHS. The Federal and
Private and State Defendants were photographed in the acts
of working military equipment and military boots on the
ground in strict prohibition of the federal contract and
federal laws as a second-tier subcontractor to Respondents
Atlantic Electric LLC and its co-owners, the Richardson
Bros. This Privity of Contract ignored by the District Court
while the federal government was both a Defendant and a
Plaintiff due to Qui Tam Laws — is a conflict of the duty of
the USAOSC, Mr. Ragsdale.
i.

A trial of these facts will show that the copper money

from the theft was commingled by the private defendants

t

15

into Republican Campaign contributions in South Carolina
and then the payback was a appointment to the State
License and Labor Contractors Board membership to

LeGrande Richardson, Jr. who in turn lead an unjust and
unfair Disciplinary Action against the Appellant as a
licensed contractor. The matter is pending South Carolina
Court of Appeal to reverse the loss of the Appellant
Contractors License but my attorney was able to prevent the
Board and its general counsel from revoking the Appellants
HVAC and Electrical Licenses to date. This was plead as
further Retaliation(s) for Whistleblowing, e.g.

when the

Petitioner-Appellant’s Amended Complaint was filed.
9.

The District Courts General Rule2 is that corporate

entity and even the United States government must be
represented by an attorney. This is a rule and not the law.
In fact, the Appellant plead as seen by the three (3)

2 It must be noted again, if it is not already clear, that the general rule
/
is not authorized by any statutory or jurisdictional limitation, but is a
judicially-created rule. See Frahki Foundation Co. v. AlgerRau &
Assocs., 513 F.2d
/ 581, 586 (3d Cir. 1975) (“the general rule is onlv a rule
of practice and may be relaxed whenever justice so warrants").

16
transcripts in the Record, that Congress had approved that
before a Motion to Dismiss in a Qui Tam can be had, there
MUST first be a hearing (and there were 3 hearings) and as
such, the Appellant was allowed to speak to the District
Court Magistrate, but this turned out to be upon deaf ears;
10.

. . . The Appellant placed into the record a Brief

written by the Federal Law Center that gave and step-bystep procedure for District Courts to appoint an Attorney
with a Restricted Scope of Representation. This method was
not adopted by the District Court and as such, the District
Court’s decision about this evidence, this case law in the
Brief of the topic; is certainly for open consideration by the
District Court of Appeals for vacating the District Orders
and to return this matter for a new trial with a Restricted
Scope of Representation Attorney - too because the USAOSC was conflicted to choose to Not Intervene but first filed a
Motion to Dismiss when IT knew IT had violated Privity of
Contract prohibitions against this Appellant. [ this is shown
on the Record as PLAINTIFF SUPPLEMENTS RESPONSE
TO DKT No. 179, 182, 183 dtd August 6, 2017]. In so doing,
the District Court was ruling contrary to this United States
District Court for the Fourth Circuit Case No. 12-1497;

h

I

I

17
11.

• • • > with the undisputable evidences presented by

the Petitioner-Appellant, all now a part of the Record on
Appeal, the District Court must not find contrary to this

United States District Court for the Fourth Circuit Case No.
12-1281U as the Appellant produced Material Facts beyond
sufficient evidence standards vice that of Carlson v.
DYNCORP’s lack of proof of crimes and frauds.
REASONS FOR GRANTING THE PETITION
The Fourth Circuit’s decision added to an existing
circuit split of exceptional importance regarding the proper
standard of appellate review when a district court denied
the legal equivalent of a partial summary judgment by
excluding evidence through a defunct motion to dismiss
ruling process. This Court should grant review to eliminate
discrepancies among the circuits, and clarify a uniform
standard for the Case Management Reversable Error(s).
The District Court failed to afford Knight the
procedural protections required under the Federal Rules of
Civil Procedure, such as allowing an opportunity to submit
evidentiary materials at the hearing(s) in opposition to each
of the Defendants motions to dismiss. The District Court’s

18

decision about the evidence Motions to Dismiss said did not
exist at all, is certainly was for serious consideration by the
District Court and of the Fourth Circuit Court of Appeals to
have vacated, reversed or remanded the District Orders and
to return this matter for a new trial.
The Reversable Errors exist in the Record Docketed
in the appeal and one. or any or all of the above are sufficient
to vacate the Fourth Circuit Court of Appeals and the
District Court and return the entire matter for a trial.
Other Courts of Appeals, confronted with similar
circumstances, have rejected applying the traditional
standard of review applicable to evidentiary motions to
dismiss. These courts recognize that a motion to dismiss can
be inappropriately used to dismiss an entire cause of action.
In these contexts, the circuit courts have developed multiple
standards of review of evidence required, none of which are
consistent with the standards applied by the Fourth Circuit
to this pro se Petitioner. Under any of these standards, this
District Court case would have been properly reversed on
Appeal.

!;
!

t

19
When a district court denied a motion for Judgement
by Default and then systemically granted motions to
dismiss that is in essence a motion for summary judgment,
that grant must be reviewed by the appeals court under the
standard used to review motions for summary judgment.
The Fourth Circuit & USDC failed to do so, dismissing
Petitioner s cause of action without proper grounds or
procedures, (e.g. the Petitioner’s Case Management failure
claims)
This Court should grant a review to prevent abusive
uses of motions to dismiss and correct the Fourth Circuit’s
erroneous holding.
I.

The Fourth Circuit’s Decision Reflects an Existing

Circuit Split Regarding Review of Improper Grants of
Summary Judgment Through Motions in Limine, Motion to
Dismiss

erred

from

this

cases Magistrate

Judges

procedurally flawed Report(s) and Recommendation(s).
The Fourth Circuit ’s application of the harmless
error standard stating that it found no Reversable Errors-, to
review all the motion(s) to dismiss, rather than the Court nf
. Appeals applying a more stringent finding for Reversable

20

Errors that has the more practical effect of granting a
favorable judgment on a valid cause of action added to a
circuit split of exceptional important This issue could

impact any civil case and presents the opportunity for
litigants to abuse court procedures - severely prejudicing
the non- movant — without an effective cure. Given the
number of appeals court decisions addressing this issue, and
the differing standards applied by these courts, it is evident
that this abuse of the dismissal procedure is not uncommon,
and, as in this case, can have a devastating impact on an
otherwise valid case.
If this case had been filed in the other circuits that have
addressed this issue, the district court’s exclusion of all
evidence related to this Petitioner’s three mam issue
through a motion ito dismiss would have been reversed on
appeal. When faced with similarly overbroad dismissal
rulings and de facto/sua sponte summary judgment
motions, courts in these circuits have labeled such requests
as improper. Consistently avoiding utilizing the heightened
harmless error review applicable to evidentiary rulings,
these courts either apply a variety of less stringent standard
than harmless error, or simply reverse and remand.

I

I

21

However this Petitioner KnighUset forth a solid Reversable
Error appeal. The Court applied the wrong standard and
gave a blessing to the Two Judge Rule of South Carolina,
which was ruled unconstitutional by the SC Supreme Court
(2018). Court of Appeal have a tendency to read a Judge
below RETURN and not give the de novo review.
As set forth below, including the Ninth Circuit position,
there are now four separate standards applied to this issue:
A. Majority of Circuits Decline to Review Disguised
Depository Motions, Choosing to Simply Reverse.
The USDC Charleston failed to apply any consistently
used standard about the Petitioner’s Motions, regardless of
the tvnes of motions he filed.
The Sixth, Seventh, and Federal Circuits do not apply
the traditional “harmless error” standard when reviewing a
judgment predicated on a motion in limine that has the
practical effect of dismissing a cause of action. These
Circuits unequivocally decline to review the merits of the

underlying claim when it is dismissed by a disguised
summary judgment motion, instead choosing to simply
reverse and remand without substantive review of the

22

motion itself. In short, these Circuits not only reject the
harmless error standard, they apply a standard that is in
fact the exact opposite of that standard.
See, APPENDIX 3.1 supporting citations:
SeeLouzon v. Ford Motor Co. 718 F. 3d 556, 562-63 (6th Cir.
2013). AND See Id. at 563.
See, e.g., Louzon v. Ford Motor Co., 718 F.3d 556, 563 (6th
Cir. 2013)
See Mid-Am. Tablewares, Inc. v. Mogi Trading Co., Ltd., 100
F. 3d 1353 (7th Cir. 1996)
See Meyer Intellectual Properties Ltd. v. Bodum, Inc., 690
F. 3d 1354 (Fed. Cir. 2012)
See, e.g., Williams v. Rushmore Loan Mgmt. Servs. LLC,
No. 3:15CV673(RNC), 2017 WL 822793 (D. Conn. Mar. 2,
2017)
See Meyer Intellectual Properties Ltd. v. Bodum, Inc690
F.3d 1354, 1378 (Fed. Cir. 2012).
B. Other Circuits Use Less Stringent Standards to Review
Disguised Summary Judgment Motions.
The First, Third, Tenth, and Eleventh Circuits review
grants of disguised summary judgment motions either de

x

23

novo or using other less stringent standards than harmless
error. These circuits also stress the importance of
procedural safeguards and timeliness of such motions. ,
See, APPENDIX 3.2 supporting citations-'
See Berkovitz v. Home Box Office, Inc., 89 F3d 24, 30 (1st
Cir. 1996)
See, Stella v. Town of Tewksbury, Mass., 4 F. 3d 53, 56 (1st
Cir. 1993)
See, Bradley v. Pittsburgh Bd. of Educ., 913 F.2d 1064 (3d
Cir.1990);AND See 913 F.2d 1064,1069 (3d Cir. 1990).
See, Brobst v. Columbus Servs. Inti, 761 F.2d 148, 154 (3d
Cir. 1985), cert, denied, 484 U.S. 1043 (1988)
See, Givaudan Fragrances Corp. v. Krivda, 639 F. App’x
840, 843n.6 (3d Cir. 2016) (
See, Zokari v. Gates, 561 F.3d 1076, 1082 (10th Cir. 2009)
See, Massey v. Congress Life Ins. Co., 116F.Sd 1414, 1417~
18 (11th Cir. 1997)
See, APPENDIX 3.3 supporting citations:
See Berkovitz v. Home Box Office, Inc., 89 F.3d 24, 30- 31
(1st Cir. 1996AND See Id. at 31. AND See Id. at 30. AND
See Id. at 30-31.

24
For Knight, this best opportunity would have been
preserved, but he was not served a Roseboro Order for
Defendant Chenega and Thorpe’s first-Motion to Dismiss as

it was filed immediately after the Petitioner was to file his
Objections to the District Judge on the Magistrate’s Report
and Recommendation. The Court using the second-Motion
to Dismiss Roseboro order served by the Magistrate to claim
a notice that it mysteriously now included the first-Motion
to Dismiss FILED some 6 months earlier is a chutzpah! The
Magistrate later wrote, “her court;

."assumed that the

Plaintiffhad abandoned his case." This is Ghostwriting at
its worst afterwards.
C. The Circuit Split Has Serious, Wide- spread Practical
Ramifications on All Litigation.
Because this issue is broadly applicable in any civil
case, the circuit split has serious, widespread practical
ramifications impacting all litigation, not just cases filed
under FCA or SOX. The instant case is an important
example of how dispositive motions are used to exploit this
uncertainty, but this is not an isolated incident. The
Reversable Error(s) at issue is not unique, and in fact

i..

25

creates a procedural tool that had/have significant adverse
impacts on Knight.
Moreover, because there is no clear standard of
review applicable to cases such as {Knight’s}, {See
APPENDIES} . . . the appellate courts utilize differing
standards, creating at least a four-circuit split in the
approach to this issue. While some courts follow the Sixth
Circuit’s standard of re- view, others take their lead from
the Third, and many more do not specify an explicit
standard at all. It is clear that the circuits are in conflict,
and district courts
As illuminated by this WRIT at Footnotes 1, 2, & 3,
many opposing litigants have attempted to use this
ambiguity to end-run the Federal Rules of Civil Procedure
over unsuspecting pro se parties. Additionally, even the
Fourth Circuit appears uncertain how to correctly address
this issue with consistency. See, e.g., U.S. v. Ross, 206 F.3d
896 (9th Cir. 2000) (noting, in a criminal case, that while a
“district court’s ruling on a motion in limine** [is generally
reviewed] only for an abuse of discretion,” it will be reviewed
“de novo if the order precludes presentation of a defense”).
Qui Tam is both a crime and civil offense.

26

... in the Second, Fourth, Fifth, Eighth, and DC Circuits
are also in need of this Court’s guidance in order to avoid
even greater fracturing. Considering the morass of district
and circuit court opinions on this issue, it is paramount that
this Court clarify the proper standard of review for the
transformation of evidentiary motions into summary
judgment motions.
The Supreme Court should therefore grant this
petition for writ of certiorari in order to articulate a uniform
standard and eliminate the discrepancies among the
circuits. Further, the approach adopted by the Ninth Circuit
in Stroh should be specifically rejected. Clarifying the
proper standard of review would also assist district courts
in reviewing cloaked motions for summary judgment. We
urge the Court to reject the Fourth Circuit’s opinion and
adopt the standard articulated by the Sixth Circuit.
Adoption of this standard would prevent the future
exploitation of motions in limine {emphasis' motion to
dismiss when the evidence is not presented to a jury at trial
by devious Case Management processed for dispositive
means and divert such procedural concerns before
irreparable harm occurs.

27

Additionally, misuse is possible in the circuits that
have yet to set a definitive standard. As such, a uniform
standard would also prevent forum shopping.
II. The Fourth Circuit Applied the Incorrect Standard of
Review When Evaluating the District Court’s Denial of
Knight’s Motion in Limine Dismissing Evidence of FCAProtected Activity.
The ignored evidences issue - was a contributing
factor in Knight’s appeal. For this Petitioner, it was his
undisputed three items of undisputable evidence issues that
were ignored by the Courts below.
Knight “reasonably believed” and “showed” that the
State Defendants influenced and proposed plan to destroy
his SCLLR Contractors Licensure. See SOX at 18 tJ.S.C.
§1514A(a)(l)(C). See FCA 31U.S.C. § 3730(h) & (h)(l); 42
U.S.C. §1983 et sea.
Yet, the district court did not simply exclude a piece
of evidence through grant of Defendant’s motion(s). Rather,
it effectively dismissed an entire cause of action (i.e.,
Knight’s FCA retaliation claim predicated on undisputable

28

material facts and evidences), preventing the jury from
reviewing facts pertinent to Knight’s claim.
By allowing all the Defendants to dispose of issues
that should rightly have been decided by the jury, the
district court “deprived Knight of an opportunity to present
all pertinent material to defend against the dismissal of ”
his retaliation claim - including evidence relating to
Knight’s status as a whistleblower under FCA. See Meyer
Intellectual Props. Ltd., 690 F.3d at 1378.
This effectively dismissed Stroh’s SOX cause of
action. Accordingly, the district court improperly granted
Saturna’s motion as, bv excluding all evidence of a
contributing factor, the court made a final dispositive
decision on a non-dispositive motion. See, e.g., Givaudan
Fragrances Corp. v. Krivda, 639 F. App’x 840 (3d Cir. 2016)
(finding motion in limine decision with “dispositive effect”
was sua sponte entry of summary judgment); Osunde v.
Lewis, 281 F.R.D. 250 (D. Md. 2012)

The trial court, and

subsequently the appeals court, were made aware by
Petitioner that excluding the undisputable evidence issue
would mean Knight could not demonstrate a key FCA claim.
Knight made this clear to the trial judge, noting that

29
without the evidence in the Complaint and Memorandum
and Amended Complaint issue, “there’s really not much left
for [Knight].”

The court never spoke or wrote of the

evidences presented by Knight.
However, the means by which litigants may attempt
to dismiss all or part of a case is a summary judgment
motion, not an in limine motion. See, e.g., Louzon, 718 F.3d
at 561 (“[A] mechanism already exists in civil actions to
resolve non-evidentiary matters prior to trial — the
summary judgment motion.”); Gold Cross Ems, Inc. v.
Children’s Hospital of Alabama, 309 F.R.D. 699, 702 (S.D.
Ga. 2015) (“[T]he Federal Rules of Civil Procedure contain
multiple rules allowing parties to dismiss claims; there is no
need to disguise a motion for summary judgment in the
clothing of a motion in limine.”) {emphasis■ or as a motion to
dismiss when Knight had undisputed material facts into
evidence}. To the contrary, in limine motions are designed
only to facilitate case management. See, e.g., Louzon,. 718
F.3d at 561. Such motions {emphasis'- like one to dismiss}
“are not proper procedural devices for the wholesale
disposition of theories or defenses.” Id. at 562 (internal
citations omitted).

30

Nevertheless, the Fourth Circuit reviewed the
erroneous holding for “harmless error” and determined that
the preclusion of all evidence relating to Knight, the

Petitioner, most important protected disclosure, including
his status as a whistleblower, was not prejudicial. Because
the

District

Court’s

rulings

essentially

converted

Defendant’s motion into a de facto summary Judgment
unjustly.
District Court judgment motions to dismiss excluding
a recognizing and a valuation of all evidence related to
Knight’s distinct claim, the Fourth Circuit erred in applying
the harmless error standard vice granting the Petitioner
Knight a judgment for Reversable Error(s).
Analysis

under

the

harmless

error

standard

{emphasis- same can be found for the Reversable Error
standards is utilized when courts review a trial court
decision for abuse of discretion and “conclude evidence has
been improperly admitted.” {emphasid “or as Knights was
improperly ignored’... Estate of Barabin v. AstenJohnson,
Inc., 740 F.3d 457, 464 (9th Cir. 2014); see also Haddad v.
Lockheed California Corp., 720 F.2d 1454, 1458-59 (9th Cir.
1983) (“The purpose of a harmless error standard is to

31
enable an appellate court to gauge the probability that the
trier of fact was affected by the error.”) (internal citations
omitted). This standard allows appeals courts to affirm

unless they find the error prejudiced a party by
substantially influencing the verdict or affecting a party’s
substantial rights. See id.5 Fed. R. Civ. P. 61; Fed. R. Evid.
103(e). Knight’s Substantive Rights were prejudiced
unjustly. However, courts cannot conduct a harmless error
inquiry in reviewing blanket dismissal of claims, such as on
summary judgment. See, e.g., Kyle Railways, Inc. v. Pac.
Admin. Servs., Inc., 990 F.2d 513, 517 (9th Cir. 1993) (“We
review de novo grants of partial summary judgment and
motions to dismiss.”). The court must apply to the appealed
issue either the same standard as the district court should
have, or simply reverse and remand.
III. The Fourth Circuit Should Have Reviewed the
District Court’s De Facto Grant of Judgment Under One of
Several Less Severe Standards.
Outside of the Fourth Circuit, Courts of Appeals that have
addressed this issue apply three separate standards to
review motions in limine that dismiss entire claims. Under
any of these alternative approaches, the district court’s

32

action in this matter would have been reversed and
remanded. Same truth holds for marred motions to dismiss.
The majority of circuits reject the dismissal of claims
by motions in limine. Louzon, 718 F.3d at 562- 63; Mid'Am.
Tablewares, Inc. v. Mogi Trading Co., Ltd., 100 F.3d 1353
(7th Cir. 1996); Meyer Intellectual Properties Ltd., 690 F.3d
at 1378. Once it was established that such “non-evidentiary
matters were raised and resolved in limine,” these courts
would have reversed and remanded for further proceedings,
without any further substantive review. Louzon, 718 F.3d
at 562-63. The District Court wrote great lengths with much
‘inject a erroneous history of Knight’ and never responded to
his motions to correct this misgivings in favor of these
Defendants. The courts pro se attorney goofed the truth and
Knight was tainted unjustly.
Alternatively, a minority of circuits reverse and
remand claims dismissed through flawed dismiss motions
where the nonmoving party, a pro se litigant, was not given
Roseboro notice and the opportunity to marshal evidence
and to object. See, e.g., Bradley, 913 F.2d at 1070-71 (3d Cir.
1990) (“Most importantly, in the absence of a formal motion
for summary judgment, plaintiff was under no formal

33

compulsion to marshall [sic] all of the evidence in support of
his claims.”); Brobst v. Columbus Servs, Int’l, 761 F.2d 148
(3d Cir. 1985), cert, denied, 484 U.S. 1043 (1988); Massey v.
Congress Life Ins. Co., 116 F.3d 1414 (llth Cir. 1997). The
District Court performed a ‘bait and switch1 placing the
second motion of Chenega and Thorpe Roseboro notice upon
the first motion of Chenega and Thorpe that originally did
not have such a notice issued by the Magistrate.
Further, the deadline for filing the Roseboro Order for
Chenega and Thorpe by the Magistrate Judge falsely
supported the District Judge to grant its dispositive motions
was long past about 6 months past, and the request for
granting procedurally was therefore untimely.! see also
Peterson v. Corrections Corpora* tion of America, 2015 WL
5672026 (N.D. Fla. 2015); Gold Cross Ems, Inc., 309 F.R.D.
at 701 (finding that party could not have been “on notice
that the Court would sua sponte convert Plaintiff’s motions
in limine into a motion for summary-judgment even though
Plaintiff filed its motions 503 days after the summary
judgment deadline”). Upon consideration of the lack of these
procedural safeguards, the Fourth Circuit should have
reversed and remanded for further proceedings this

34

Defendants first Motion to Dismiss after the Report and
Recommendation was noticed and in the District Judges
Chamber with no Roseboro Order issued.
Dispositive motions in this case having been granted
at the District Court were layered in the same misuse and
mechanizations schemes as are these references in these
Motion to Dismiss misuse arguments used by these Federal
Districts patterns of rulings - not as harmless errors - but
being Reversable Errors. See FN 1. These are the parallels.
Finally, some courts review in limine motions
disguised as summary judgment granting {wrongfully}
motions (to dismiss} de novo. See, e.g., Berkovitz, 89 F.3d at
30-31; Givaudan Fragrances Corp., 639 F. App’x at 843 n.6;
Zokari v. Gates, 561 F.3d 1076 (10th Cir. 2009). Wholesale
dismissal of claims via an evidentiary mechanism flaunts
the process the Court has put in place to promote justice and
fairness. Compare Fed. R. Civ. P. 56(a); Adickes v. S. H.
Kress & Co., 398 U.S. 144, 157 (1970) with Fed. R. Evid.
103(d), 104(a), (c).
Here, a de novo review of what was effectively a summary
judgment motion should have viewed the evidence in the
light most favorable to the nonmoving party (Knight), and

A

35

would only have been appropriate if the movant to dismiss
(all defendants) {failed} to show that there was no genuine
issue of material fact and it was therefore entitled to
judgment as a matter of law. See, e.g., Covey v. Hollydale
Mobilehome Estates, 116 F.3d 830, 834 (9th Cir. 1997)
(reviewing district court’s grant of summary judgment de
novo).
Unquestionably, Disputed contract and Retaliation
issues of fact remained unresolved, and the district court’s
determination that the evidence ignored issues could not be
introduced was an erroneous legal conclusion. Accordingly,
the Fourth Circuit relied on several facts to find harmless
error and not reversable errors. However, none of these
arguments justify throwing out Knight’s issue claim at the
district court, nor do they justify affirming that ruling on
appeal. In fact, these matters show both why the district
court’s grant of the Defendants motions was improper, and
why exclusion of the FLETC and Writ of Mandamus and
Privity of Contract issues and had the Fourth Circuit
reviewed the district court’s ruling under the de novo
standard, it would have reversed and remanded for further
proceedings. Instead, the court improperly applied the

C/

36
harmless error standard, but combing of the record for any
evidence that would have clearly supported a potential jury
verdict in favor of this Petitioner. The Reversable Error
Standard should have attached.
Substantially being procedurally prejudiced, Knight,
likewise, these facts demonstrate why the Fourth Circuit
should have reversed upon a de novo review of the district
court’s de facto judgment ruling.
Additionally, there is absolutely no requirement, and
no adverse inference can be implied, if a whistleblower does
not continuously repeat his protected activity. Knight did
supply the record with clear proof of protected activity and
of retaliations.
The Supreme Court should therefore grant this petition for
writ of certiorari in order to clarify the standard of appellate
review for all dispositive-dismissal motions that effectively
dismissed completely all cause of actions, and to correct the
Fourth Circuit’s erroneous holding in this case.
The Fourth Circuit further relied upon after-acquired
irrelevant evidence in denying the Petitioner’s Motion for
Judgement by Default against Legrande Richardson

A

37

individually same as Jr. Legrande, as the person who was
living and served his three Summons. He did not appear
either as an owner of Atlantic Electric nor as Individual. He
was illegally afforded attorney representation at the
expense and cost of the South Carolina State Insurance
Fund hired law firm. However, Circuit and Supreme Court
precedent make clear that such evidence cannot be used in
deciding liability under retaliation protection statutes such
as SOX {or FCA}. [ emphasis'- But, a Default Judgment for
this Defendant’s failure to legally appear is fatal ofits own
rightA See, e.g., O’Day v. McDonnell Douglas Helicopter Co.,
79 F.3d 756, 759 (9th Cir. 1996). The District Court created
this Reversable Error and the Fourth Circuit did not act
properly to remand the matter for a Trial of the Facts and
Judgment for Knight.
In this Petitioner’s rear view mirror arguments, the
FLETC Investigation Report containing the confession of
the copper theft by Atlantic and the obstruction to prevent
the arrest of Officer Lt. Davis are synonymous parallel with
the FBI computer issuer of Stroh’s. The District Court gave
nothing for the theft confession obtained by FLETC and the
photos of the misuses of military personnel and equipment

38

for a private profit and a prohibited activity. Too, later was
compounded the COTR testimony that was withheld
INTENTIONALLY by the government causing further with

the FLETC withheld by the government gave cause to grant
this Petitioner his cause of action for a Writ of Mandamus
in the USDC Gergel Court. Silence is a 5th Amendment
Right only of a citizen’s choosing, but it not a right of the
United States as a party in litigation. The U.S. Solicitor
General has a policy published that was a silence once a
district case was Noticed to the United States Courts of
Appeals. Again, this is a Justice Department Policy as a
General Rule, and is not a Law authorized by Congress. See
FN 2. There are exceptions to be applied to this case.
CONCLUSION
The results upon this Petitioner for the denial of his motions
and the granting of the Defendants Motion to Dismiss matters not the kinds of motions** (in limine, a summary or
a dismissal) if they were ultimately dispositive and results
and procedures were not complied with, then justice was not
perfected and Petitioner Knight was denied his fair chance
at justice.

39
For the foregoing reasons, the Court should grant a writ of
certiorari.

Respectfully submitted
September 1, 2019
Bobby Knight, pro se
3940 Hottinger Ave.
North Charleston, S.C. 29405
(843) 735-0814

